AUDIT OF DENTON COUNTY SHERIFF’S OFFICE
 EQUITABLE SHARING PROGRAM ACTIVITIES
             DENTON, TEXAS



         U.S. Department of Justice
       Office of the Inspector General
                Audit Division


         Audit Report GR-30-11-003
                 May 2011
         AUDIT OF DENTON COUNTY SHERIFF’S OFFICE
          EQUITABLE SHARING PROGRAM ACTIVITIES
                      DENTON, TEXAS

                         EXECUTIVE SUMMARY

       The purpose of the Department of Justice (DOJ) asset forfeiture
program is to deter crime by depriving criminals the profits and proceeds of
illegal activities while enhancing the cooperation between federal, state, and
local law enforcement agencies. State and local law enforcement agencies
that participate in the seizure of property and funds may receive a portion of
the proceeds, or an equitable share of the forfeiture, to use for law
enforcement purposes.

       The Department of Justice (DOJ) Office of the Inspector General (OIG)
conducted an audit to assess the Denton County Sheriff’s Office’s (Denton
County) tracking and use of equitable sharing funds. The audit covered
fiscal years (FY) 2007 through 2010, beginning on October 1, 2006 and
ending on September 30, 2010. During these 4 years, Denton County
received $1.58 million as a participant in the DOJ equitable sharing program.

      Our audit identified weaknesses related to how Denton County: (1)
tracked equitable sharing revenue, (2) inventoried accountable property
purchased with asset forfeiture funds, and (3) supported expenditures paid
with equitable sharing receipts. Accordingly, we identified $5,176 in
questioned costs related to expenditures that lacked adequate support. We
further recommend that the Criminal Division:

   •   Ensure that Denton County periodically reconciles the equitable
       sharing funds it receives to the corresponding amount it requests.

   •   Require that Denton County updates its inventory policy to track all
       accountable property derived from asset forfeiture revenues on a
       single inventory that is updated consistently and checked periodically
       for accuracy.

   •   Ensure that Denton County obtains receipts or invoices pertaining to
       advanced equitable sharing funds and reconcile advances to these
       invoices or receipts.
          AUDIT OF DENTON COUNTY SHERIFF’S OFFICE
           EQUITABLE SHARING PROGRAM ACTIVITIES
                       DENTON, TEXAS

                               TABLE OF CONTENTS
                                                                                          Page

INTRODUCTION ................................................................................ 1
    DOJ Equitable Sharing Program ..................................................... 1
    Denton County ............................................................................ 1
    OIG Audit Approach ...................................................................... 2

FINDINGS AND RECOMMENDATIONS................................................ 3
    Federal Sharing Agreements and Certification Forms ........................ 3
    Accounting for Equitable Sharing Receipts ....................................... 4
    Use of Equitable Sharing Funds ...................................................... 6
    Recommendations ........................................................................ 9

SCHEDULE OF DOLLAR-RELATED FINDINGS ................................... 10

APPENDIX I - OBJECTIVE, SCOPE, AND METHODOLOGY ................. 11

APPENDIX II - DENTON COUNTY SHERIFF'S OFFICE RESPONSE
    TO DRAFT REPORT ................................................................. 13

APPENDIX III - OFFICE OF THE INSPECTOR GENERAL ANALYSIS
    OF ACTIONS NECESSARY TO CLOSE THE REPORT .................. 15
                             INTRODUCTION

      The Department of Justice (DOJ) Office of the Inspector General (OIG)
conducted this audit to assess the tracking and use of DOJ equitable sharing
funds by the Denton County Sheriff’s Office (Denton County) in Denton,
Texas. The audit covered fiscal years (FY) 2007 through 2010, beginning on
October 1, 2006 and ending on September 30, 2010. During these 4 years,
Denton County received $1.58 million as a participant in the DOJ equitable
sharing program.

DOJ Equitable Sharing Program

        The DOJ Asset Forfeiture Program is a national law enforcement
initiative that seeks to remove the tools of crime from criminal
organizations, deprive wrongdoers of the proceeds of their crimes, and deter
crime. The program fosters cooperation among federal, state, and local law
enforcement agencies. State and local law enforcement agencies that
directly participate in an investigation or prosecution that result in a federal
forfeiture may request an equitable share of the net proceeds of the
forfeiture.

       Three DOJ components work together to administer the equitable
sharing program – the United States Marshals Service (USMS), the Justice
Management Division (JMD), and the Criminal Division’s Asset Forfeiture and
Money Laundering Section (AFMLS). The USMS is responsible for
transferring asset forfeiture funds from the DOJ to the receiving state or
local agency. The JMD manages the Consolidated Asset Tracking System
(CATS), which is used to compile asset distribution reports to track federally
seized assets throughout an asset’s forfeiture lifecycle. Finally, AFMLS
tracks membership of state and local equitable sharing program participants,
updates the equitable sharing program rules and policies, and monitors the
allocation and use of equitably shared funds.

       As a prerequisite to participating in the DOJ equitable sharing
program, a state or local law enforcement agency must annually submit to
AFMLS a signed Equitable Sharing Agreement and Certification form. As part
of each annual agreement, officials of participating agencies certify that they
will comply with applicable guidelines and statutes.

Denton County

      Established in 1846, the County of Denton is located in the north
central part of Texas. Denton County serves a population of over 658,000
residents living across 888 square miles. Its sheriff is the chief law
                                       1
enforcement officer for the county and is responsible for operating the
county jails, investigating crimes, making arrests, enforcing traffic
regulations, serving court orders, and seizing property. Denton County has
been under the leadership of Sheriff Benny Parkey since 2005.

      Denton County became a member of the DOJ asset forfeiture program
in 1999. According to the Assistant Chief Deputy Sheriff, it has participated
in investigations led by the Federal Bureau of Investigation, Drug
Enforcement Administration, Bureau of Alcohol, Tobacco, Firearms and
Explosives, and United States Marshal Service.

OIG Audit Approach

      We tested compliance with what we considered the most important
conditions of the DOJ equitable sharing program. Unless otherwise stated,
we applied the AFMLS Guide to Equitable Sharing for State and Local Law
Enforcement Agencies (Equitable Sharing Guide) as our primary criteria.
The Guide outlines procedures for submitting equitable sharing requests and
discusses the proper use and accounting for equitable sharing assets.

      To conduct the audit, we tested Denton County’s compliance with the
following three aspects of the DOJ equitable sharing program:

  •   Federal Sharing Agreements and Certification Forms to
      determine if these documents were complete and accurate.

  •   Accounting for equitable sharing receipts to determine whether
      standard accounting procedures were used to track equitable sharing
      assets.

  •   Use of equitable sharing funds to determine if equitable sharing
      cash was used for law enforcement purposes.

     See Appendix I for more information on our objectives, scope and
methodology.




                                      2
               FINDINGS AND RECOMMENDATIONS

      Although Denton County commingled different sources of asset
      forfeiture revenues into one account, it was able to identify DOJ
      equitable sharing revenues. Therefore, it accurately reported
      DOJ equitable sharing expenditures on a pro-rata basis of the
      annual revenue. We found that Denton County reconciled
      receipts against DOJ distribution reports listing the amount of
      funds it received, but it did not reconcile equitable sharing funds
      received against outstanding requests and did not consistently
      inventory items purchased with equitable sharing funds.
      Furthermore, although all sampled Denton County asset
      forfeiture expenditures were allowable, our sample identified
      $5,176 in outlays that lacked adequate supporting
      documentation to confirm advance payments made with
      equitable sharing funds.

Federal Sharing Agreements and Certification Forms

       According to the DOJ Equitable Sharing Guide, state and local law
enforcement agencies must submit Equitable Sharing Agreement and
Certification forms within 60 days after the end of an agency’s fiscal year.
The agreement must be signed by the head of the law enforcement agency
and a designated official of the local governing body. Additionally, the
receiving agency should submit a newly signed agreement when an
administration change occurs. By signing and submitting the agreement,
the signatories agree to follow statutes and guidelines that regulated the
equitable sharing program.

      We obtained copies of Denton County’s certification forms for FYs 2007
to 2010 to determine if the forms were complete, accurate, and submitted
on time. We found that Denton County submitted its most recent
agreement on time and that it was signed by appropriate officials.

      To verify the total amount of equitable sharing funds Denton County
received, we compared the receipts listed on the most recent certification
form to the total amount listed as disbursed on the DOJ’s detail distribution
report. We found that the amounts listed on the certification form agreed
with the amount listed on the detail distribution report.

      To verify the total expenditures listed on the certification, we
compared the expenditures reported on the most recent certification form,
$67,136, to the accounting records, the FY 2010 reconciliation report, and
the calculation worksheet used by Denton County to prepare the

                                       3
certifications. However, based on our analysis of accounting records of the
fund used to hold DOJ equitable sharing receipts, Denton County spent
$70,042 during FY 2010.

                   EXHIBIT 1: EXPENDITURE COMPARISON

                                                                  Percentage
                                                                  of Reported
                                      Expenditures Per                DOJ
            Expenditures Per           Denton County             Expenditures
                FY 2010              Accounting Records             vs. Total
              Certification              for FY 2010             Expenditures
                $67,136                    $70,042                    96%
           Source: Denton County accounting records

      Denton County officials explained to us that they based the
expenditures reported on the DOJ certification forms on a pro-rata allocation
of equitable sharing receipts for the fiscal year. According to these officials,
the expenditures are reported this way because Denton County holds all of
its equitable sharing receipts from federal, state, and local sources in a
single forfeiture fund. 1 As shown in Exhibit 1, Denton County reported that
96 percent of outlays from this account were sourced to DOJ equitable
sharing revenues.

      To verify whether the allocation was accurate, we analyzed Denton
County’s total equitable sharing receipts for FY 2010. During this time,
Denton County deposited $1,158,469 in its forfeiture fund, of which
$1,106,033, or 96 percent, was received from the DOJ. Because this
percentage matched the percentage Denton County allocated to expenses,
we concluded that Denton County accurately reported expenditures allocated
on a pro-rata basis.

Accounting for Equitable Sharing Receipts

     The DOJ Equitable Sharing Guide requires that law enforcement
agencies use standard accounting procedures to track equitable sharing
program receipts.

      Denton County conducts collaborative investigations with several
federal law enforcement agencies. If officers seize assets during these
investigations, such as cash and property items, Denton County completes

       1
         Denton County identifies the source agency for deposits made to its forfeiture
fund. In addition to the DOJ, Denton County received asset forfeiture revenues from the
U.S. Department of the Treasury, the State of Texas, and local law enforcement entities.

                                             4
and submits a Form DAG-71 to the DOJ to request a percentage, or share, of
the asset’s proceeds. 2

      From FY 2007 to 2010, the DOJ detailed distribution report for Denton
County recorded equitable sharing receipts totaling $1.58 million, as shown
in Exhibit 2.

    EXHIBIT 2: DENTON COUNTY EQUITABLE SHARING RECEIPTS
                      (FY 2007 TO 2010)


                                 Cash or           Property     Total
                  FY           Proceeds ($)           ($)        ($)
                 2007                  94,715              0      94,715
                 2008                  75,585         11,213      86,797
                 2009                 286,730         12,761     299,491
                 2010               1,106,033              0   1,106,033
                TOTAL             $1,563,063        $23,974 $1,587,036*
            Source: DOJ
            Note: Difference in totals due to rounding.

       Agencies receiving equitable sharing revenues should maintain a log of
all sharing requests that lists the seizure type, seizure amount, share
amount requested, amount received, and date received for each request.
Since the amount actually received may differ from the amount requested
on the DAG-71 forms, receiving agencies should periodically update the log
to ensure accurate recordkeeping.

       Denton County did not maintain an equitable sharing log recording
requests and receipts. During audit fieldwork, pertinent officials used the
DAG-71s to create a log and provided it to us. We reviewed the equitable
sharing log for accuracy by selecting the five highest-value financial receipts,
totaling over $790,000, which Denton County received from DOJ to
determine if these receipts were included on the equitable sharing log. We
were able to trace all five financial receipts through the log and
corresponding bank statements. Nevertheless, it is important that Denton
County track equitable sharing requests against receipts to ensure that it
can account for all equitable sharing funds. We therefore recommend the
Criminal Division ensure that Denton County periodically reconciles the
equitable sharing funds it receives to the corresponding amount it requests.


       2
          According to the Equitable Sharing Guide, a state or local agency completes and
submits a separate Form DAG-71, “Application for Transfer of Federally Forfeited Property”
for each shared asset request.

                                             5
       Equitable sharing guidelines also require that recipients use property
acquired via the program for appropriate, law enforcement purposes. We
selected all three tangible property receipts listed on the DOJ’s detail
distribution report and confirmed that the property received was used for
allowable law enforcement purposes. In addition, applicable property
received via the program was included in Denton County’s inventory records.

Use of Equitable Sharing Funds

      As summarized by Exhibit 3, the Equitable Sharing Guide outlines
allowable and unallowable uses for equitable sharing funds. 3

  EXHIBIT 3: SUMMARY OF ALLOWABLE AND UNALLOWABLE USES
               FOR EQUITABLE SHARING FUNDS

               Allowable Uses                           Unallowable Uses
                                                 Salaries and benefits for current
       Law enforcement investigations
                                                    law enforcement personnel
                                                 Use of forfeited property by non-
           Law enforcement training
                                                    law enforcement personnel
       Law enforcement and detention             Payment of non-law enforcement
                   facilities                         education-related costs
         Law enforcement equipment                 Non-official government use
         Law enforcement travel and
                                                  Purchase of food and beverages
                transportation
        Asset accounting and tracking
                                                       Extravagant expenses
                   expenses
     Source: 2009 DOJ Equitable Sharing Guide

       The Chief Deputy is responsible for administering and overseeing
Denton County funds, including those available through asset forfeitures.
We were told that the Chief Deputy and the Sheriff meet routinely with other
Denton County officials to identify potential uses for the equitable sharing
revenues. These officials propose expenditures to the Denton County
Commissioner’s Court, which is the governing authority for the County of
Denton. The Sheriff also commented that his department works closely with
the County Auditor’s Office and relies on their expertise in monitoring and
identifying costs associated with equitable sharing funds, as well as his other
budgetary funds. The Sheriff stated that, as a result, asset forfeiture funds
are not used to pay for law enforcement salaries or acquire items provided
for in Denton County’s budget. Instead, the Sheriff stated that Denton
County uses its asset forfeiture funds to attend specialized training and

       3
         The Criminal Division Equitable Sharing Guide includes the complete list of
allowable and unallowable uses for equitable sharing funds.

                                             6
procure computer equipment or law enforcement-related software that
would otherwise not be available to them.

      Denton County spent a total of $466,253 from its asset forfeiture fund
account during the audit period, with $318,577 of this amount pro-rated to
DOJ funds. 4 Purchases included covert vehicles and law enforcement related
equipment for undercover officers, a dog and related specialized K-9 training
for the dog-handling team, covert operations training, and firearms. These
types of expenditures represent approximately 68 percent of the total
expenditures made by Denton County over the audit period, and
accordingly, reflect, on average, the level of equitable sharing fund
contribution by the Department over the same 4-year period.

      To assess whether Denton County’s equitable sharing expenditures
were allowable and supported accurately, we judgmentally sampled 50
transactions totaling $273,909, or approximately 60 percent of the amount
of asset forfeiture fund deposits expended during the audit period. The
sample included high-dollar purchases, as well as an assortment of costs we
judgmentally selected based on their potential for impermissible or improper
uses. We evaluated the nature and purpose of these expenditures and
determined that sampled items purchased with equitable sharing revenues
were allowable and appeared to supplement and not supplant Denton
County’s budgeted funds.

Safeguarding Accountable Property

        We also physically verified whether Denton County properly tracked
and used, for allowable law enforcement purposes, items purchased with
equitable sharing funds. Although we were able to verify physically all items
sampled for this review, Denton County did not consolidate and updated its
inventory records. As a result, Denton County inventory records were
incomplete and did not accurately track who received accountable property
and where those items were stored. For example, inventories only listed
two of five portable Global Positioning System (GPS) devices purchased with
monies from the asset forfeiture fund. Furthermore, Denton County
maintained multiple inventory records for weapons, such as shotguns and
rifles, and no single weapon inventory record contained complete and up-to-
date information about all weapons purchased with asset forfeiture funds.

       4
          The $466,253 in expenditures includes a $43,000 general fund transfer that
Denton County used to purchase a tactical surveillance robot. In addition, because Denton
County commingled monies from non-DOJ sources with DOJ equitable sharing revenues in a
single asset forfeiture fund, our review encompassed reviewing the allowability of expenses
that may not be derived from DOJ equitable sharing revenues.


                                            7
Without careful and consistent tracking of accountable property, Denton
County risks not being able to safeguard items purchased with asset
forfeiture funds. Therefore, we recommend that the Criminal Division
require that Denton County updates its inventory policy to track all
accountable property derived from asset forfeiture revenues on a single
inventory that is updated consistently and checked periodically for accuracy.
Such a policy should also ensure that Denton County’s multiple weapons
inventory records are validated, consolidated, and carefully monitored in the
future.

Adequate Documentation For Expenditures

      For each sampled expenditure, we requested supporting records
showing the items purchased, date of purchase, the cost of items purchased,
and proof of payment. From the documents provided, we determined that
Denton County maintained records that adequately supported all but two
sampled expenditures – a $695 charge for lodging in 2007 and a $4,481
charge for lodging in 2009.5 According to Denton County officials, both of
these expenditures pertain to funds advanced to hotels to cover lodging
costs incurred by Denton County employees on official travel status. It is
Denton County policy to advance payment on behalf of its employees
authorized for training and travel when direct billing options are not
available. In such instances, payment is made by issuing a check to the
hotel or training facility based on anticipated costs or quotes. However,
because Denton County did not obtain receipts or invoices
contemporaneously from hotels, Denton County was unable to provide
evidence confirming that $5,176 in advance payments made for hotel
lodging was accurate and valid.

       Although Denton County advanced funds based on vendor quotes, it
still needs to show that employees actually incurred the expense quoted by
either staying at the hotel or receiving the training. We therefore
recommend that the Criminal Division remedy the $5,176 in unsupported
advanced travel funds. We further recommend that the Criminal Division
ensure that Denton County implements a process by which it obtains
receipts or invoices pertaining to advanced equitable sharing funds and
reconciles advances to these invoices or receipts.




       5
         We note that of the 50 sampled transactions, 18 asset forfeiture fund expenditures
involved advanced payments. Denton County was able to obtain invoices for 16 of these
payments during our fieldwork.

                                            8
Recommendations

We recommend that the Criminal Division:

1.   Ensure that Denton County periodically reconciles the equitable
     sharing funds it receives to the corresponding amount it requests.

2.   Require that Denton County updates its inventory policy to track all
     accountable property derived from asset forfeiture revenues on a
     single inventory that is updated consistently and checked periodically
     for accuracy.

3.   Remedy $4,481 in questioned costs due to an unsupported
     expenditure in 2009.

4.   Remedy $695 in questioned cost due to an unsupported expenditure in
     2007.

5.   Ensure that Denton County implements a process by which it
     obtains receipts or invoices pertaining to advanced equitable sharing
     funds and reconciles advances to these invoices or receipts.




                                     9
            SCHEDULE OF DOLLAR-RELATED FINDINGS


                                                              AMOUNT             PAGE

 QUESTIONED COSTS:


 Unsupported expenditures

     Lodging related to 2009 Training                              $4,481          8

     Lodging related to 2007 Training                              $   695         8

 Total Questioned Costs:                                           $5,176


 TOTAL DOLLAR RELATED FINDINGS:                                   $5,176




_________
        Questioned Costs are monies spent that, at the time of the audit, do not comply with
legal requirements, or are unsupported, unnecessary, or unreasonable. They can be
recoverable or non-recoverable.


                                            10
                                                                 APPENDIX I


            OBJECTIVE, SCOPE, AND METHODOLOGY

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objective.

Objective

      The objective of the audit was to assess whether the Denton County
Sheriff’s Office (Denton County) accounted for equitable sharing funds
properly and used such revenues for allowable purposes defined by
applicable guidelines. We tested compliance with what we considered were
the most important conditions of the Department of Justice’s (DOJ) equitable
sharing program. We reviewed laws, regulations, and guidelines governing
the accounting for and use of DOJ equitable sharing receipts, including
pertinent versions of the Criminal Division’s Guide to Equitable Sharing for
State and Local Law Enforcement Agencies.

      Unless otherwise stated in our report, the criteria used during the
audit were contained in this document.

Scope and Methodology

       Our audit concentrated on, but was not limited to, equitable sharing
receipts received by Denton County between October 1, 2007 and
September 30, 2010. The U.S. Department of the Treasury administers a
similar equitable sharing program. Our audit included equitable sharing
revenues received through both the DOJ and Treasury federal equitable
sharing programs, as well as equitable sharing funds awarded to Denton
County through its law enforcement participation with state and municipal
entities.

      During FYs 2007-2010, there were receipts totaling $1.58 million. We
tested a judgmental sample of five receipts totaling $790,551. We selected
a judgmental sample of 50 disbursements, totaling $273,909, or
approximately 60 percent of the total expenditures made with equitable
sharing funds during the audit period. We applied our judgmental sampling



                                    11
design to obtain a broad exposure to numerous facets of the disbursements
reviewed, such as dollar amounts. This non-statistical sample design did not
allow us to project results of our testing to the entire universe of equitable
sharing disbursements made in the scope of our audit.

      We performed audit work at Denton County headquarters and the
Denton County Auditor’s Office located in Denton, Texas. To accomplish the
objectives of the audit, we interviewed Denton County officials and examined
records, related revenues, and expenditures of equitable sharing revenues.
In addition, we relied on computer-generated data contained in the DOJ
Detail Distribution Report for determining equitably shared revenues and
property awarded to Denton County during the audit period. We did not
establish the reliability of the data contained in the DOJ equitable sharing
system as a whole. However, when the data used is viewed in context with
other available evidence, we believe the opinions, conclusions, and
recommendations included in this report are valid.

      Our audit specifically evaluated Denton County’s compliance with three
essential equitable sharing guidelines: (1) Federal Sharing Agreements
and Annual Certification Reports, (2) Accounting for equitable sharing
receipts, and (3) Use of equitable sharing funds. In planning and performing
our audit, we considered internal controls established and used by Denton
County and its county government over DOJ equitable sharing receipts to
accomplish our audit objectives. However, we did not assess Denton
County’s financial management system’s reliability, internal controls, or
whether it, as a whole, complied with laws and regulations.

       Our audit included an evaluation of a county-wide audit conducted of
the County of Denton, of which the auditee is a sub-unit, by Pattillo, Brown
& Hill, LLP, CPAs. The results of this audit were reported in the Single Audit
Report that accompanied the Comprehensive Annual Financial Report for the
year ended September 30, 2009. The Single Audit Report was prepared
under the provisions of Office of Management and Budget Circular A-133.
We reviewed the independent auditor’s assessment, which disclosed no
control weaknesses or significant noncompliance issues related specifically to
the auditee.




                                    12
                                                                                  APPENDIX II

         DENTON COUNTY RESPONSE TO DRAFT REPORT

May 3, 2011

John Manning
Washington Regional Audit Office
DOJ Office of the Inspector General
1300 N. 17th Street, Suite 3400
Arlington, VA 22209
FAX: 202.616.4581


Dear Mr. Manning,

Please accept this correspondence as the official response to the recent audit of equitable sharing
funds for Denton County. Please know that we found it a pleasure to meet and work with Dallas
Moore and Priscilla Gibson and they presented themselves as very efficient, thorough, and
professional during the proceedings.

Also please note that the audit report reflects that all sampled expenditures in the four year audit
period appeared to be allowable and all sampled tangible property was located and produced for
inspection. Therefore this response will address the noted weaknesses and what steps have been
taken to remedy those.

Before the conclusion of the audit, Sheriff’s Office and Denton County Auditor’s Office
Officials collaborated on and established a system to better reconcile and track forfeited funds.
One of the issues that contributed to this deficiency is the way awarded funds are received from
DOJ and a lack of consistent identifiers or case numbers to reference the award. Also before the
audit concluded, the required DAG log was created and updated, and provided to OIG auditors.
Prior to the audit, DCSO Drug Enforcement Unit supervisors maintained copies of all DAG
forms submitted and documented all required information, but failed to compile it in the form of
a DAG log at the advice of Federal agents assigned to local task forces working in the
conjunction with our agency, based on the idea that each task force maintained such a log.
Before the conclusion of the audit, DCSO and Denton County auditors worked together to
correct these issues and agreed upon procedures to ensure periodic reconciliation of all funds.

Another weakness cited was the lack of a centralized inventory file of all property acquired from
forfeitures. All items of property and equipment were recorded but appeared in separate
inventories depending on the unit or work group assignment of the responsible party. These
occurred essentially in three separate places. Since the audit we have created a master list that
contains the required information. Additionally, we are currently in the process of remedying this
issue by identifying a software program capable of consolidating each inventory into one
database. We should soon have this operational with all mandatory data entered. Once



                                               13
completed, this database will be subject to periodic spot checks for accuracy as well as complete
annual inventory reconciliation.

The audit report cites a third weakness related to a lack of “adequate support” for $5176 in
expenditures related to hotel expenses incurred at two out of town training courses in 2007 and
2009 attended by several employees. These expenditures were documented and supported by the
following; an approved budget by the governing body with funds allocated for the purpose of
training, travel, and lodging, purchase orders or check requisitions documenting an advance
payment to specific hotels for lodging for approved training, reservation confirmations from the
specific hotels coinciding with the stay, documentation for the actual training course fees and
individual certifications of completion for the courses taken and/or documentation of completion
submitted to the State of Texas peace officer licensing entity (TCLEOSE). Since this weakness
was cited, DCSO has implemented a policy that further documents all allowable training, travel,
and lodging, and directs employees to submit a copy of the final hotel receipt upon return for
reconciliation of all advanced or reimbursed expenditures.

We believe these stated procedures have or will soon bring DCSO into compliance with all
aspects of the Equitable Sharing Program and the audit recommendations. We believe as a whole
the procedures and policies of DCSO and Denton County both prior to this audit, and for the
future, show a good faith effort to conduct proper, lawful use and accounting of all forfeited
assets.

Sincerely,


Lee Howell
Chief Deputy Sheriff
Denton County Sheriff’s Office
Denton, Texas




                                             14
                                                               APPENDIX III

              OFFICE OF THE INSPECTOR GENERAL
             ANALYSIS AND SUMMARY OF ACTIONS
               NECESSARY TO CLOSE THE REPORT

      The Department of Justice Office of the Inspector General (OIG)
provided a draft of this audit report to the Criminal Division and the Denton
County Sheriff’s Office (Denton County). We incorporated Denton County’s
response as Appendix II of this final report. However, the audit
recommendations are unresolved because the Criminal Division declined to
provide comments on the draft report. The following provides the OIG
analysis of Denton County’s response and a summary of actions necessary
to resolve each report recommendation.

   1. Unresolved. Denton County concurred with our recommendation to
      reconcile periodically the equitable sharing funds it receives to the
      corresponding amount it requests. Denton County stated that its
      administrative and operational units have begun collaborating to
      establish a system to reconcile equitable sharing funds.

      However, this recommendation is unresolved because the Criminal
      Division did not respond to the draft report. This recommendation can
      be resolved once the OIG and the Criminal Division reach agreement
      on corrective action.

   2. Unresolved. Denton County concurred with our recommendation to
      update its inventory policy to track all accountable property derived
      from asset forfeiture revenues on a single inventory. Denton County
      stated that it has created a master inventory that includes all required
      information. Additionally, it is in the process of identifying a software
      program capable of consolidating each inventory into one database.

      However, this recommendation is unresolved because the Criminal
      Division did not respond to the draft report. This recommendation can
      be resolved once the OIG and the Criminal Division reach agreement
      on corrective action.

   3. Unresolved. Denton County concurred with our recommendation to
      provide additional supporting documentation for advanced
      expenditures. Denton County stated that it has implemented a policy
      that requires all employees submit a copy of the final hotel receipt




                                     15
  upon return of travel to help ensure adequate support of future
  advanced or reimbursed expenditures.

  However, this recommendation is unresolved because the Criminal
  Division did not respond to the draft report. This recommendation can
  be resolved once the OIG and the Criminal Division reach agreement
  on corrective action.

4. Unresolved. Denton County concurred with our recommendation to
   provide additional supporting documentation for advanced
   expenditures. Denton County stated that it has implemented a policy
   that requires all employees submit a copy of the final hotel receipt
   upon return of travel to help ensure adequate support of future
   advanced or reimbursed expenditures.

  However, this recommendation is unresolved because the Criminal
  Division did not respond to the draft report. This recommendation can
  be resolved once the OIG and the Criminal Division reach agreement
  on corrective action.

5. Unresolved. Denton County concurred with our recommendation to
   provide additional supporting documentation for advanced
   expenditures. Denton County stated that it has implemented a policy
   for reconciliation of all advanced or reimbursed expenditures.

  However, this recommendation is unresolved because the Criminal
  Division did not respond to the draft report. This recommendation can
  be resolved once the OIG and the Criminal Division reach agreement
  on corrective action.




                                16
